>1
■

PROOF OF SERVICE
I, Wynship Hillier, Petitioner in pro per, declare as follows:
1. All parties required to be served in this case have been served.
2. Service was made on defendants Central Intelligence Agency and United States
Department of State by depositing the Petition for Certiorari and the Appendix to
the Petition for Certiorari in the U.S. Mail, first-class postage prepaid, on_____,
and addressed as follows:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave NW
Washington DC 20530-0001
(202)514-2217
I declare under penalty of perjury that the foregoing is true and correct.
Executed oiv

_

nsj p Hillier,
Petitioner in pro per

~)Y]

>

